Audit Report




OIG-11-100
SAFETY AND SOUNDNESS: Material Loss Review of Irwin
Union, FSB
September 14, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report

  Causes of Irwin Union’s Failure ...................................................................       3

          Transactions With Affiliates ...............................................................      3

          High Concentration of CRE Loans ......................................................            5

   OTS’s Supervision of Irwin Union ……………………………………………………..                                                  6

          OTS Did Not Ensure the Irwin Union Board of Directors and Management
          Acted Independently When Representing the Thrift’s Interests……..… ....                            7

          OTS Did Not Adequately Assess Irwin Union’s Dependence on Its
          Affiliates for Profitability…………………………………..……. ...................                                9

          OTS’s Use of Prompt Corrective Action ..............................................              9

          OTS’s Internal Failed Bank Review .....................................................          10

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................              12
  Appendix    2:      Background........................................................................   15
  Appendix    3:      Management Response .......................................................          17
  Appendix    4:      Major Contributors to This Report .........................................          18
  Appendix    5:      Report Distribution ..............................................................   19

Abbreviations

  ALLL                allowance for loan and lease losses
  CRE                 commercial real estate
  FDIC                Federal Deposit Insurance Corporation
  FRB                 The Board of Governors of the Federal Reserve System
  IDFI                Indiana Department of Financial Institutions
  IFC                 Irwin Financial Corporation
  IUBT                Irwin Union Bank and Trust
  MRBA                matter requiring board attention
  OCC                 Office of the Comptroller of the Currency


                      Material Loss Review of Irwin Union, FSB (OIG-11-100)                                 Page i
OTS   Office of Thrift Supervision
PCA   prompt corrective action
ROE   report of examination




      Material Loss Review of Irwin Union, FSB (OIG-11-100)   Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       September 14, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our review of the failure of Irwin
                       Union Bank, FSB (Irwin Union) of Louisville, KY, and of the Office
                       of Thrift Supervision’s (OTS) supervision of the institution. We are
                       providing the results of this review for your information since the
                       Office of the Comptroller of the Currency (OCC) assumed
                       regulatory responsibilities for federal savings associations on
                       July 21, 2011, pursuant to P.L. 111-203. OTS closed Irwin Union
                       and appointed the Federal Deposit Insurance Corporation (FDIC) as
                       receiver on September 18, 2009. This review was mandated by
                       section 38(k) of the Federal Deposit Insurance Act because of the
                       magnitude of Irwin Union’s estimated loss to the Deposit Insurance
                       Fund. 1, 2 As of March 31, 2011, FDIC estimated the loss at $138.7
                       million. FDIC also estimated that Irwin Union’s failure resulted in a
                       loss of $19.8 million to its Transaction Account Guarantee
                       Program.

                       Our objectives were to determine the causes of Irwin Union’s
                       failure; assess OTS’s supervision of the thrift, including
                       implementation of the prompt corrective action (PCA) provisions of
                       section 38; and make recommendations for preventing such a loss
                       in the future. To accomplish these objectives, we reviewed the
                       supervisory files and interviewed OTS and FDIC officials. We
                       conducted our fieldwork from October 2009 through April 2010.

1
  At the time of Irwin Union’s failure, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k)
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in
OIG-11-065, Safety and Soundness: Material Loss Review Glossary (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of Irwin Union, FSB (OIG-11-100)                             Page 1
                      Appendix 1 contains a more detailed description of our review
                      objectives, scope, and methodology. Appendix 2 contains
                      background information on Irwin Union’s history and OTS’s
                      assessment fees and examination hours.

                      In brief, Irwin Union failed primarily because of an overreliance on,
                      and transactions with, affiliates—Irwin Financial Corporation (IFC)
                      and Irwin Union Bank and Trust (IUBT). 3 In addition, the board of
                      directors and management of the thrift engaged in risky
                      management practices, including high concentrations in commercial
                      real estate (CRE) loans and a high concentration of business with a
                      troubled affiliate, IUBT. When IUBT failed on September 18, 2009,
                      OTS deemed Irwin Union unable to continue operations as a
                      separate entity and closed the thrift. 4 Regarding supervision, OTS
                      examiners did not timely or adequately respond to ensure the Irwin
                      Union board of directors and management acted independent of
                      IFC and IUBT when representing the thrift’s interests. Throughout
                      Irwin Union’s existence, OTS also did not adequately assess the
                      thrift’s dependence on its affiliates for profitability. From inception
                      through its failure in September 2009, Irwin Union remained
                      well-capitalized under PCA provisions. Accordingly, since the
                      thrift’s capital ratios were within the prescribed guidelines, OTS
                      was not required to, and did not, take PCA actions.

                      In light of the transfer of OTS functions to other federal banking
                      agencies on July 21, 2011, we are not making any
                      recommendations as a result of our material loss review of the
                      Irwin Union failure. We provided OCC with a draft of this report for
                      its review. In a written response, which is included as appendix 3,
                      OCC did not provide specific comments on the report contents.




3
  IFC, located in Columbus, Indiana, was a multibank holding company that owned Irwin Union and its
sister bank, IUBT. IUBT was a state member bank also headquartered in Columbus, and regulated by the
Indiana Department of Financial Institutions (IDFI) and the Federal Reserve Bank of Chicago, under
delegated authority from the Board of Governors of the Federal Reserve System (FRB).
4
  IUBT was closed and FDIC named receiver on September 18, 2009. On October 29, 2009, FDIC
estimated the loss to the Deposit Insurance Fund at $552.4 million on total assets of $2.7 billion. The
FRB Office of Inspector General completed a material loss review on the IUBT failure and issued its
report on April 29, 2010. For a description of the facts and circumstances surrounding the failure of
IUBT, please refer to http://www.federalreserve.gov/oig/files/Irwin_UBT_final_report_4_29_10.pdf .


                      Material Loss Review of Irwin Union, FSB (OIG-11-100)                     Page 2
Causes of Irwin Union’s Failure
              The primary cause of Irwin Union’s failure was an overreliance on,
              and transactions with, its affiliates, IFC and IUBT. In addition, the
              board of directors and management of the thrift engaged in risky
              management practices, including high concentrations in CRE loans
              and a high concentration of business with a troubled affiliate, IUBT.
              Irwin Union never achieved profitability independent of its affiliates.
              When IUBT failed on September 18, 2009, OTS deemed Irwin
              Union unable to continue operations as a separate entity and closed
              the thrift.

              Transactions With Affiliates

              Beginning in 2000, IFC, the parent company of Irwin Union and
              IUBT, pursued an aggressive growth strategy. To carry out that
              strategy, IFC established Irwin Union in 2000 to expand
              commercial banking activities in areas where IUBT could not branch
              under its state charter. IFC managed its subsidiaries by lines of
              business rather than as independent entities, with Irwin Union
              treated as part of IUBT’s commercial lending line of business. From
              its inception in October 2000, Irwin Union’s business plan involved
              shared management with IFC and IUBT, and in many cases, the
              same operating policies. When OTS approved Irwin Union’s
              charter, OTS accepted shared management as a means to reduce
              expenses and allowed Irwin Union to use the expertise of its
              affiliates’ management. At that time, the charter application
              correspondence between the OTS regional office and headquarters
              documented OTS’s intention to use the examination and
              supervisory process to ensure that Irwin Union operated as a
              distinct entity.

              From 2001 to 2008, OTS examiners repeatedly documented the
              need for Irwin Union to be managed and operated independent of
              its affiliates. However, the thrift did not operate independently
              from its affiliates. By 2008, Irwin Union and IUBT shared over 110
              employees in the commercial banking line of business, including the
              president, vice president, and treasurer. In addition, from inception,
              Irwin Union’s board of directors was comprised of many individuals
              who had already established relationships with IFC and IUBT. OTS
              documented its concerns about the board of director’s lack of


              Material Loss Review of Irwin Union, FSB (OIG-11-100)            Page 3
                      independence during its review of Irwin Union’s charter application
                      in 2000. The independence of the board of directors and
                      management remained a concern in 2008 enforcement actions.

                      OTS reports of examination (ROE) documented numerous examples
                      of Irwin Union’s shared management approving transactions that
                      were not in the best interest of the thrift, including:

                          •   Insufficient interest rates charged by Irwin Union for Federal
                              funds sold to IUBT.
                          •   Inadequate collateral received on Irwin Union assets pledged
                              to secure loans for IUBT.
                          •   Excessive fees paid by Irwin Union to IUBT for management
                              services.
                          •   Low interest rates charged on loans made by Irwin Union to
                              IUBT’s customers—the interest rates charged did not cover
                              Irwin Union’s cost of funds.

                      Irwin Union’s business plan focused on originating loans in
                      high-growth markets that IUBT was unable to pursue under its
                      state charter. From its inception through 2003, Irwin Union sold
                      almost all its CRE loans to IUBT. Although the extent that CRE
                      loans were sold to affiliates dropped after 2003, OTS noted in
                      2008 that the thrift still was selling over half of its CRE loans to
                      IUBT. The thrift’s core income 5 net of loan loss provision was
                      negative in 8 of 9 years of its existence. Transactions with IUBT
                      accounted for 70 percent of the thrift’s non-interest income in
                      2008, primarily through the purchase of CRE loans originated by
                      Irwin Union. In 2008, OTS stated that the thrift’s success in
                      achieving earnings projections depended on IUBT’s ability to
                      continue purchasing loans from the thrift. When IUBT failed, Irwin
                      Union lost its primary source of income.

                      Irwin Union’s expenses were also dependent on its relationship
                      with IFC and IUBT. The thrift had high non-interest expenses based
                      on services provided by affiliates under contractual agreements.
                      These agreements provided the basis for allocating costs for joint
                      management and services to each affiliate. OTS noted that Irwin

5
  OTS defined core income as net interest margin plus fees earned from loan servicing and other sources
of recurring and reasonably predictable income, minus general and administrative expenses. Core
income does not include gains/losses from the sale of loans.


                      Material Loss Review of Irwin Union, FSB (OIG-11-100)                      Page 4
Union’s fees paid under these arrangements were often higher than
similar expenses for a thrift of Irwin Union’s size and complexity.
From 2002 to 2008, Irwin Union’s general and administrative
expenses were on average, 39 percent higher than its peer
institutions.

High Concentration of CRE Loans

As part of its growth strategy, IFC through Irwin Union extended
operations into areas such as California, Arizona, Nevada, and
Florida. These geographic markets were significantly impacted by
the economic crisis that began in 2007. The thrift and its affiliates
had significant exposure to real estate declines that resulted in
deterioration in the thrift’s overall asset quality and earnings.

OTS broadly defined concentrations of credit as a group of similar
assets or liabilities that, when aggregated, exceed 25 percent of a
thrift’s core capital plus allowance for loan and lease losses (ALLL).
For most of Irwin Union’s existence, OTS ROEs reported
concentrations in CRE loans in excess of this threshold. By 2006,
Irwin Union’s nonresidential permanent and construction mortgage
loans represented 234 percent of core capital plus ALLL. Two
years later, the concentration in CRE loans was so problematic that
OTS issued an enforcement action to prevent the thrift from
entering into any new construction or land loans without prior
approval from the OTS Regional Director. By December 2008, total
classified assets increased to 90 percent of tier 1 capital plus
ALLL, with commercial loans dominating the portfolio. The risk
associated with these high concentrations in CRE loans became
apparent during the economic downturn that began in 2007. The
quality of Irwin Union’s CRE loans deteriorated rapidly during this
time which forced Irwin Union to recognize extensive loan losses
and make large provisions to its ALLL, eroding its earnings and
capital. Irwin Union reported losses of $12.2 million in 2008 and
$15.2 million for the first two quarters in 2009. Irwin Union’s
management failed to identify, measure, monitor, and control the
risks associated with high concentrations in CRE loans.




Material Loss Review of Irwin Union, FSB (OIG-11-100)            Page 5
OTS’s Supervision of Irwin Union
                     OTS performed timely examinations of Irwin Union in accordance
                     with examination guidelines but did not timely or adequately ensure
                     the Irwin Union board of directors and management acted
                     independently when representing the thrift’s interests. Throughout
                     Irwin Union’s existence, OTS did not adequately assess the quality
                     of Irwin Union’s earnings and its dependence on affiliates for
                     profitability. As such, the thrift was never compelled to establish a
                     separate sustainable corporate existence and its risk exposure to
                     IFC and IUBT was allowed to increase significantly.

                     When we discussed these matters with the examiners, they stated
                     that in the early years, IFC and IUBT were viewed as a source of
                     strength because both entities were well-established institutions
                     and IFC was providing capital infusions to support Irwin Union’s
                     growth. These were among the reasons cited in OTS’s ROEs for
                     the relatively high CAMELS management and earnings ratings
                     assigned to Irwin Union until 2008. It was only when the affiliated
                     entities faltered that the examiners started to react stronger but by
                     then it was too late.

                     Table 1 summarizes the results of OTS’s safety and soundness and
                     limited examinations of Irwin Union from 2001 until its closure in
                     September 2009. Generally, matters requiring board attention
                     (MRBA) represent the most significant items reported in ROEs
                     requiring corrective action.

              Table 1. OTS Examinations of Irwin Union (July 2001-September 2009)
                                                      Examination Results
               Total assets
               (in $ millions)
Date           at time of      CAMELS        No. of      No. of corrective   Enforcement
started        examination     rating        MRBAs       actions             actions
7/23/2001
Full-scope             $125     2/222311           2                  7      None
examination
10/7/2002
Full-scope             $289     2/222211           0                 15      None
examination
12/3/2003
Full-scope             $425     2/122212           7                 14      None
examination



                     Material Loss Review of Irwin Union, FSB (OIG-11-100)                 Page 6
               Table 1. OTS Examinations of Irwin Union (July 2001-September 2009)
                                                       Examination Results
                Total assets
                (in $ millions)
 Date           at time of      CAMELS        No. of      No. of corrective   Enforcement
 started        examination     rating        MRBAs       actions             actions
 3/7/2005
 Full-scope             $375     2/122211           4                  8      None
 examination
 9/25/2006
 Full-scope             $515     2/122221           4                 14      None
 examination
                                                                              Supervisory
 4/28/2008                                                                    Directive issued
 Full-scope                                                                   5/5/2008;
 examination                                                                  Troubled
                        $692     4/333442          15                 15      Condition Letter
                                                                              issued 5/9/2008;
                                                                              Memorandum of
                                                                              Understanding
                                                                              issued 7/29/2008
 5/7/2008
 Limited              $692     4/323441     N/A                               None
 examination
 12/1/2008                                                                    Supervisory
 Limited              $630     4/343442     N/A                               Agreement issued
 examination                                                                  10/10/2008
 3/2/2009                                                                     Cease and Desist
 Full-scope           $630     5/554543         15                    21      Order issued
 examination                                                                  7/24/2009
Source: OTS ROEs examination history and enforcement actions.

                      OTS Did Not Ensure the Irwin Union Board of Directors and
                      Management Acted Independently When Representing the Thrift’s
                      Interests

                      Irwin Union was created as a financial institution with shared
                      management with IFC and IUBT. At the time the thrift was
                      chartered in 2000, application correspondence between the OTS
                      regional office and headquarters documented that OTS would use
                      the examination and supervisory process to ensure that Irwin Union
                      operated as a distinct entity. Irwin Union’s initial business plan
                      stated that the thrift president, along with other senior executives,
                      would start out as dual employees of both Irwin Union and IUBT,
                      and would eventually become full-time employees of Irwin Union as
                      it grew. However, when Irwin Union’s assets peaked at


                      Material Loss Review of Irwin Union, FSB (OIG-11-100)                 Page 7
$692 million in June 30, 2008, the thrift still did not have a full
time president or other executives that were independent of IFC
and IUBT. OTS raised its concerns about dual management in its
2003 ROE, stating that the management approach taken by Irwin
Union was not sufficiently attentive to the needs of the thrift as a
separate entity. The 2006 ROE also mentioned that Irwin Union
used dual employees. However, that ROE did not include any
corrective actions or MRBAs to compel management to address the
issue. When OTS issued its 2008 ROE, many of the same issues
identified in the past were reported. Examiners once again stated
that the line-of-business management approach did not always
result in sufficient risk management reporting and controls for Irwin
Union as an independent entity. From 2001 to 2008, OTS
examiners repeatedly documented transactions approved by the
joint management that were not in Irwin Union’s best interest and
the need to manage and operate the thrift independently of its
affiliates. However, it was not until IUBT faced a possible liquidity
failure in 2008, that OTS finally took more forceful measures with
a May 2008 supervisory directive (an informal, non-public
enforcement action) to require Irwin Union to obtain separate
management. This action and subsequent enforcement actions
were not effective and the thrift did not achieve management
independence from IFC and IUBT.

Although OTS had repeatedly documented concerns about
transactions with affiliates and the independence of thrift
management, OTS assigned Irwin Union a CAMELS management
rating of 2 from 2001 through 2007, reflecting OTS’s assessment
of Irwin Union’s risk management by the board of directors and
management as satisfactory. Section 070 of the OTS handbook
states that the CAMELS management rating reflects the capability
of the board of directors and management to identify, measure,
monitor, and control the risks of an institution’s activities to ensure
a financial institution is safe and sound. OTS’s management rating
of Irwin Union did not accurately reflect the thrift’s ability to
manage risks. It was not until 2008 when IUBT’s condition had
significantly deteriorated that OTS downgraded Irwin Union’s
CAMELS management component to a 3.




Material Loss Review of Irwin Union, FSB (OIG-11-100)             Page 8
OTS Did Not Adequately Assess Irwin Union’s Dependence on Its
Affiliates for Profitability

As early as the 2002 ROE, examiners were reporting that Irwin
Union heavily relied on fees from the sale of commercial loans to
IUBT. Much of Irwin Union’s earnings came from non-recurring,
non-interest income sources. Core income adjusted for loan loss
provisions showed that the thrift had losses every year of operation
except 2006. For 2006 and 2007, 80 percent of Irwin Union’s
non-interest income came from selling loans to IUBT, and servicing
those loans.

OTS’s Examination Handbook required examiners to test for the
quality of the thrift’s earnings. Examiners must look at the thrift’s
statement of operations to determine the sources of income, and to
determine if the income sources are volatile in nature. Given the
large amount of non-interest and non-recurring income from
affiliates that Irwin Union depended on for profitability, we believe
OTS should have raised concerns about the concentration and
source of the thrift’s income. In this regard, OTS’s ROEs from
2005 and 2006 clearly reflect that core income was not a
sufficient portion of Irwin Union’s income base; however OTS did
not raise this issue as a concern or require corrective action. The
thrift’s CAMELS earnings component was rated a 2 from 2002
through 2007, reflecting OTS’s assessment of Irwin Union’s quality
and quantity of earnings as satisfactory. It was not until 2008
when IUBT’s condition had significantly deteriorated that the
thrift’s CAMELS earnings component was downgraded to a 4. We
believe that OTS should have acted sooner and more forcefully to
compel Irwin Union to diversify its customer base and increase
additional sources of interest income. Beginning in 2008, attempts
were made by OTS to use enforcement actions to compel Irwin
Union to separate its management and operations from IUBT and
IFC, but limited actions were taken to address the concentration of
business Irwin Union had with IUBT.

OTS’s Use of Prompt Corrective Action

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take


Material Loss Review of Irwin Union, FSB (OIG-11-100)           Page 9
certain actions when an institution’s capital drops to certain levels.
PCA also gives regulators flexibility based on criteria other than
capital levels to help reduce deposit insurance losses caused by
unsafe and unsound practices.

From inception through its failure in September 2009, Irwin Union’s
capital remained well-capitalized under PCA provisions. As the
thrift’s ratios were within the prescribed guidelines, OTS was not
required to, and did not, take PCA actions.

OTS’s Internal Failed Bank Review

In accordance with its policy, OTS completed an internal failed
bank review of Irwin Union and, similar to our material loss review,
concluded that the thrift’s failure resulted primarily from
transactions with, and overreliance on, its affiliates. IFC, IUBT, and
Irwin Union operated using a “line of business” structure with
shared management and employees. As part of the commercial
lending line of business, Irwin Union’s profitability was dependent
upon gains from the sale of commercial loans to IUBT and high
non-interest expenses for services provided by the thrift’s affiliates
under contractual agreements. OTS found that Irwin Union never
established “core franchise value” independent of its affiliates, and
consequently when IUBT failed, Irwin Union also failed. Regarding
supervision, the report stated that OTS actions prior to the 2007
economic and market disruptions should have been timelier to
ensure that Irwin Union operated as a separate entity. We concur
with the review findings.
 
The internal review recommended that OTS implement guidance to
(1) communicate to the industry and regulatory staff that thrifts
should implement business practices demonstrating an operational
focus on the institution’s charter as a stand-alone entity rather than
as a line of business of a parent or affiliate, (2) require a thrift to
obtain OTS’s prior written approval for any collateral pledged on
behalf of a holding company or affiliate, (3) require regulatory staff
to evaluate the adequacy of a thrift’s management on a stand-
alone basis separate from its affiliates, and (4) instruct regulatory
staff to consider the benefits of requiring an independent audit or
an agreed upon procedures report of a thrift’s holding company
financial statements to address issues that are not considered to be



Material Loss Review of Irwin Union, FSB (OIG-11-100)           Page 10
in the best interest of the thrift. While these are prudent actions,
we are not making any recommendations as a result of our material
loss review of the Irwin Union failure because OTS functions
transferred to other federal banking agencies on July 21, 2011.

                             * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5904 or Deborah Harker, Audit Manager,
at (202) 927-5762. Major contributors to this report are listed in
appendix 4.



/s/
Kieu Rubb
Audit Director




Material Loss Review of Irwin Union, FSB (OIG-11-100)         Page 11
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Irwin Union, FSB (Irwin
                        Union), of Louisville, Kentucky, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 6 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action (PCA) provisions
                            of section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        We initiated a material loss review of Irwin Union based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which on the date of failure (September 18, 2009) was
                        $119.5 million. As of March 31, 2011, FDIC estimated that the
                        loss to the Deposit Insurance Fund from Irwin Union’s failure would
                        be $138.7 million.

                        Our objectives were to determine the causes of Irwin Union’s
                        failure and assess the Office of Thrift Supervision’s (OTS)
                        supervision of the thrift. To accomplish our review, we conducted
                        fieldwork at OTS’s headquarters in Washington, D.C.; OTS’s
                        Central Region office in Chicago, Illinois; OTS’s field office in
                        Indianapolis, Indiana; and Irwin Union’s former administrative
                        offices in Columbus, Indiana. We also interviewed OTS and FDIC
                        officials and personnel. We conducted our fieldwork from
                        October 2009 through April 2010.

                        To assess the adequacy of OTS’s supervision of Irwin Union we
                        performed the following work:

                        •   We reviewed Irwin Union’s supervisory files and records from
                            2000 to 2009. We analyzed examination reports, supporting
                            workpapers, and related supervisory correspondence to gain an


6
    12 U.S.C. § 1831o(k).


                        Material Loss Review of Irwin Union, FSB (OIG-11-100)          Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology




                            understanding of the problems identified, the approach and
                            methodology OTS used to assess the thrift’s condition, and the
                            regulatory action OTS used to compel thrift management to
                            address deficient conditions.

                        •   We reviewed examination reports of IUBT and IFC from 1998 to
                            2009 to gain an understanding of their impact on Irwin Union’s
                            failure and to help assess OTS’s supervision of the thrift. The
                            reports were prepared by the Indiana Department of Financial
                            Institutions (IDFI) and the Federal Reserve Bank of Chicago,
                            under delegated authority from the Board of Governors of the
                            Federal Reserve System (FRB).

                        •   We reviewed the FRB Office of Inspector General material loss
                            review report on the IUBT failure, dated April 29, 2010, to gain
                            an understanding of its impact on Irwin Union’s failure and to
                            help assess OTS’s supervision of the thrift.

                        •   We interviewed and discussed various aspects of the
                            supervision of Irwin Union with OTS officials and examiners to
                            obtain their perspectives on the thrift’s condition and the scope
                            of the examinations. We also interviewed FDIC officials
                            responsible for monitoring Irwin Union for federal deposit
                            insurance purposes.

                        •   We interviewed personnel from FDIC’s Division of Resolutions
                            and Receiverships involved in the receivership process, which
                            was conducted before and after Irwin Union’s closure and
                            appointment of a receiver.

                        •   We assessed OTS’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 7

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the



7
    12 U.S.C. § 1811 et seq.


                        Material Loss Review of Irwin Union, FSB (OIG-11-100)          Page 13
Appendix 1
Objectives, Scope, and Methodology




evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Irwin Union, FSB (OIG-11-100)        Page 14
Appendix 2
Background




History of Irwin Union

Irwin Union, FSB (Irwin Union) and its sister bank, Irwin Union Bank
and Trust (IUBT), were owned by Irwin Financial Corporation (IFC),
a multibank holding company. IUBT and IFC were founded in 1871
and 1972, respectively. In October 2000, the Office of Thrift
Supervision (OTS) approved IFC’s request to establish Irwin Union
as a federal savings bank. IFC’s goal for Irwin Union was to expand
IUBT’s commercial banking activities outside of Indiana, where
IUBT maintained a state charter.

IFC managed Irwin Union and IUBT by line of business rather than
as separate entities. Irwin Union and IUBT operated as the
commercial lending line of business and Irwin Union’s business plan
involved shared management with IFC and IUBT. Irwin Union had
branch offices in 9 states and was headquartered in Louisville,
Kentucky, with administrative offices located with affiliates in
Columbus, Indiana. Irwin Union was supervised by OTS, while
IUBT was supervised jointly by the Federal Reserve Bank of
Chicago, under delegated authority from the Board of Governors of
the Federal Reserve System, and by the Indiana Department of
Financial Institutions (IDFI). On September 18, 2009, when IDFI
closed IUBT, OTS deemed Irwin Union unable to operate without
its sister bank and also closed the thrift.

OTS Assessments Paid by Irwin Union

OTS funded its operations in part through semiannual assessments
on thrifts. OTS determined each institution’s assessment by adding
together three components reflecting the size, condition, and
complexity of an institution. OTS computed the size component by
multiplying an institution’s total assets, as reported on its thrift
financial report, by the applicable assessment rate. The condition
component was a percentage of the size component and was
imposed on institutions that had a 3, 4, or 5 CAMELS composite
rating. OTS imposed a complexity component if (1) a thrift
administered more than $1 billion in trust assets, (2) the
outstanding balance of assets fully or partially covered by recourse
obligations or direct credit substitutes exceeded $1 billion, or (3)
the thrift serviced over $1 billion of loans for others. OTS
calculated the complexity component by multiplying set rates by


Material Loss Review of Irwin Union, FSB (OIG-11-100)         Page 15
Appendix 2
Background




the amounts by which an association exceeded each threshold.
Table 2 shows the assessments that Irwin Union paid to OTS from
2001 through 2009.

Table 2: Assessments Paid by Irwin Union to OTS, 2001–2009

       Billing Period          Exam Rating         Amount Paid
7/1/2001-12/31/2001               -                $15,610
1/01/2002-6/30/2002               2                 21,914
7/1/2002-12/31/2002               2                 28,149
1/1/2003-6/30/2003                2                 35,669
7/1/2003-12/31/2003               2                 43,493
1/1/2004-6/30/2004                2                 48,533
7/1/2004-12/31/2004               2                 56,793
1/1/2005-6/30/2005                2                 43,166
7/1/2005-12/31/2005               2                 51,134
1/1/2006-6/30/2006                2                 62,173
7/1/2006-12/31/2006               2                 60,782
1/1/2007-6/30/2007                2                 59,573
7/1/2007-12/31/2007               2                 67,438
1/1/2008-6/30/2008                2                 77,197
7/1/2008-12/31/2008               4                160,548
1/1/2009-6/30/2009                4                153,256
7/1/2009-12/31/2009               5                133,194
Source: OTS Electronic Continuing Examination Folder system.

Number of OTS Staff Hours Spent Examining Irwin Union

Table 3 shows the number of OTS staff hours spent examining
Irwin Union from 2001 to 2009.

Table 3: Number of OTS Hours Spent on Irwin Union, 2001-2009

                                Number of Examination
 Examination Start Date
                                       Hours
       7/23/2001                      366
       10/7/2002                      636
       12/3/2003                      913
        3/7/2005                    1,158
       9/25/2006                    1,412
       4/28/2008                    1,899
       12/1/2008                      129
        3/2/2009                    2,238
Source: OTS Electronic Continuing Examination Folder system.




Material Loss Review of Irwin Union, FSB (OIG-11-100)            Page 16
Appendix 3
Management Response




Material Loss Review of Irwin Union, FSB (OIG-11-100)   Page 17
Appendix 4
Major Contributors to This Report




Deborah L. Harker, Audit Manager
Asha A. Mede, Auditor-in-Charge
Eileen J. Kao, Auditor
Michael R. Shiely, Auditor
Sherry K. Fullwood, Auditor
Justin M. Walker, Auditor
John B. Gauthier, Referencer




Material Loss Review of Irwin Union, FSB (OIG-11-100)   Page 18
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services


U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Irwin Union, FSB (OIG-11-100)     Page 19
